1/7/2020

Muslim Advocates Mail - Re: [Guy v. Lampert] Request for consent to ﬁle amicus brief in support of petition for certiorari

Matthew Callahan <matthew@muslimadvocates.org>

Re: [Guy v. Lampert] Request for consent to file amicus brief in support of petition
for certiorari
Mike McGrady <mike.mcgrady1@wyo.gov>
To: Matthew Callahan <matthew@muslimadvocates.org>

Mon, Dec 30, 2019 at 12:37 PM

Mr. Callahan,
Respondents consent.
Mike McGrady
Deputy of the Torts Division
Wyoming Attorney General's Office
123 State Capitol
Cheyenne, WY 82002
307-777-7495

On Mon, Dec 30, 2019 at 8:26 AM Matthew Callahan <matthew@muslimadvocates.org> wrote:
Mr. McGrady,
My name is Matthew Callahan. I am an attorney with Muslim Advocates, a nonprofit that advocates for religious
freedom for Americans of all faiths.
I am seeking the respondents' consent to file an amicus brief on behalf of Muslim Advocates and other organizations in
support of petitioner JonMichael Guy's petition for certiorari in the case Guy v. Lampert (Supreme Court case no. 19725). Please let me know if we have your consent.
Please feel free to reach out to me if you would like to discuss, either at this email address or at (202) 897-1892.
Many thanks.
Matthew W. Callahan
Staff Attorney | Muslim Advocates
P.O. Box 34440
Washington, DC 20043
(202) 897-2622
matthew@muslimadvocates.org
(he/him/his)
Privileged/Confidential Information may be contained in this message. If you are not the intended recipient of this message (or responsible for delivery of
the message to such person), you may not copy or deliver this message to anyone. In such case, you should destroy this message and kindly notify the
sender by reply email. Please advise immediately if you do not consent to Internet email for messages of this kind.

E-Mail to and from me, in connection with the transaction
of public business, is subject to the Wyoming Public Records
Act and may be disclosed to third parties.

https://mail.google.com/mail/u/0?ik=ab578775fb&view=pt&search=all&permmsgid=msg-f%3A1654367133797525751&simpl=msg-f%3A1654367133797525751&…

1/1

